   02/20/03           10:1.0 FAX 301 903 4656             CAPITAL REGION                - FORS FIVEA             |002/004
DOE F 1325.8
   (8.89)
 EFG (07-90)


United States Government                                   -DeOartment                                          of Enaera

Memorandum
           DATE:     February 19, 2003                                     Audit Report No.: C:AS-L-03-10
      REPLY TO
       ATTN OF:      IG-34 (A02PT034)
      SUBJECT:       Audit of the Research and Development Investment Criteria for Fossil
                                                                                          Energy
               TO:   Assistant Secretary for Fossil Energy (FE-1)


                     The purpose of this report is to inform you of the results of our review of Research and
                     Development (R&D) Investment Criteria for Fossil Energy. This review was initiated
                     in August 2002 and fieldwork was conducted through December 2002 at Department
                     Headquarters and the National Energy Technology Laboratory (NETL). The review
                     methodology is described in the attachment to this report.


                     INTRODUCTION AND OBJECTIVE


                      The President's Management Agenda for Fiscal Year (FY) 2002 directed the
                      Department of Energy (Department) to work with the Office of Management and
                     -Budget (OMB)    to develop better applied R&D investment criteria. The Department,
                      working with OMB, has developed new criteria that was used to score all applied R&D
                      activities and was to be the basis for the FY 2004 budget request. Our audit objective
                      was to determine whether current Fossil Energy research and development investment
                      criteria had impacted their research and development funding decisions.


                     CONCLUSIONS AND OBSERVATIONS


                     While we learned that the Department had used the new investment criteria to support
                     its FY 2004 budget request, management officials told us that they were working with
02/20/03   10:10 FAX 301 903 4656               CAPITAL REGION                  -.   FORS FIVEA   j003/004




           OMB to resolve issues regarding the budget request. Because funding decisions have
           not been finalized, we are terminating work on this audit without recommendations. A
           formal response to this report is not required.

           We appreciated the cooperation of your staff throughout the audit.




                                                  ickey . Hass, Director
                                                Science, Energy, Technology,
                                                   and Financial Audits
                                                Office of Audit Services
                                                Office of Inspector General

           Attachment

           cc: Team Leader, Audit Liaison, ME-2.1




                                                      2
02/20/03   10:10 FAX 301 903 4656               CAPITAL REGION                 - FORS FIVEA              Q]004/004




                                                                                         Attachment

           METHODOLOGY

           To accomplish the audit objective, we:

                  *   Reviewed the President's Management Agenda for FY 2002 to identify
                      requirements for the development of applied R&D investment criteria;

                  *   Reviewed the "Scoring Criteria for Applied R&D Investments" developed
                      by the Department and the OMB;

                  *   Obtained and reviewed 14 "Scorecards" for Fossil Energy programs to
                      determine how Fossil Energy had scored its applied R&D activities;

                  *   Obtained and reviewed Fossil Energy Program Assessment Rating Tool
                      (PART) spreadsheets to determine how Fossil Energy programs were scored
                      by OMB;

                  *   Met with Fossil Energy Headquarters and NETL officials to discuss the
                      Scorecard and PART rating processes and results;

                  *   Met with NETL Product Managers to discuss Program Plans and Roadmaps
                      and the implementation of investment criteria for R&D; and,

                  *   Reviewed performance measures in accordance with the Government
                      Performance and Results Act of 1993 to determine whether performance
                      plans and measures existed relative to Fossil Energy applied R&D.

           We conducted the audit according to generally accepted Government aud:iting standards
           for performance audits and included tests for internal controls and with laws and
           regulations to the extent necessary to satisfy the audit objective.. Accordingly, we
           assessed the Department's internal controls with regard to investments in applied R&D
           as it related to program goals and objectives. We did not use computer processed data
           during this review. Because our review was limited, it would not necessarily have
           disclosed all internal control deficiencies that may have existed at the time of the audit.
           Management waived the exit conference.
  02/24/03           16:06 FAX 301 903 4656                  CAPITAL REGION                  FORS FIVEA           Q002

DOE F 1325.8                                           .               '   .
  (8-89Y)
EFG (07-90)


United States Government                           .                           ..                Ipeartment
                                                                                                  e         of Energ

memorandum
           DATE:       FEB 2 4 2003
      REPLY TO
       ATTN OF:      IG-34 (A02PT034)
       SUBJECT:      Final Report Package for "Audit of the Research and Development Investment Criteria
                     for Fossil Energy" Audit Report Number: OAS-L-03-10
               TO:   Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services


                     Attached is the required final report package on the subject audit. The pe:rtinent details are:

                         1. Actual Staff days:         195

                             Actual Elapsed days: 175

                         2. Names of OIG and/or contractor audit staff:

                             Assistant Director:    George W. Collard
                             Team Leader:           Robert W. Lewandowski
                             Auditor-in-Charge:     Eileen E. Metz
                             Audit Staff:           James M. Powell

                         3. Coordination with Investigations and Inspections:

                             Investigations:        Yvette Milam - September 17, 2002
                             Inspections:           Henry inner - September 17, 2002




                                                              Ricky R. Hass, Director
                                                              Science, Energy, Technology,
                                                                and Financial Audits
                                                              Office of Audit Services
                                                              Office of Inspector General

                     Attachments:
                     1. Final Report (3)
                     2. Monetary Impact Report
                     3. Audit Project Summary Report
                     4. Audit Database Information Sheet
02/24/03    16:14 FAX 301           903 4656                   CAPITAL REGION                     -   FORS FIVEA                 @003/005




                                                                                                                       Attachment 2

                                      MONETARY IMPACT OF REPORT NO.: OAS-L-03-10


         1. Title of Audit:         "Audit of the Research and Development Investment Criteria for Fossil
                                    Energy"

         2. Division:               Science, Energy, Technology, and Financial Audits

         3. Project No.:            A02PT034

         4. Type of Audit:

                Financial:                                                Performance:       X
                   Financial Statement                                      Economy and Efficiency                      X
                   Financial Related                                        Program Results
               Other (specify type):

   5.

                                                                                                                       MGT.     POTENTIAL
             FINDING                        BETTER USED                             QUESTIONED COSTS                 POSITION    BUDGET
                                                                                                                                 IMPACT
                                                      Recurrin
   (A)             (B)                (C)    (D)        (E)        ()         (G)           (H)         ()              (J)        (K)
                   Title             One    Amount      No.       Total    Questioned   Unsupported    Tota..        C=Concur     Y=Yes
                                     Time    Per        Yrs.     Amount     Portion       Portion                    N=Noncon     N=No
                                               Year                                                                  U=Undec


         Research and Development    N/A       N/A      N/A       N/A         N/A          N/A         N/A.            N/A         N/A
         Investment Criteria for
         Fossil Energy



   TOTALS--ALL FINDINGS               $0        $0       $0       '$0         $0            $0            0     ''



    6. Remarks: There is no current monetary impact or potential future savings.

    7. Contractor:                                             10. Approvals:
    8. Contract No.:                                               Division Director & Date             __'D.

    9.. Task Order No.:                                            Technical Advisor & Date
 02/24/03       16:15 FAX 301 903 4656                      CAPITAL REGION             -, FORS FIVEA                   ]004/005
                                             Office of the Inspector General (OIG.)
                                        Audit Project Office Summary (APS)
                                                                                                                       Page 1
Report run on:                   February 20, 2003 9:56 AM
                                                                                                           Attachment 3
  Audit#: A02PT034              Ofc:   PTA     Title: R&D INVESTMENT CRITERIA FOR FOSSIL ENERGY

                                                                                                .. t [
                                                                                             :1,9

                                          --------------        Planned ----------------                 Actual
                                              Profile        End of Survey     Revised

   Entrance Conference:                      26-AUG-02        28-AUG-02        28-AUG-02         :2-AUG-02
   Survey Completed:                         26-OCT-02                         09-DEC-02

   Field Work Complete:
   Draft Report Issued:
   Exit Conference:
   Completed with Report:                    26-FEB-03                                            19-FEB-03           (R
 S---------Elapsed Days                            184                                                    175
   ----------     Staff Days:                      225                 0                                  195

   Date Suspended:                                         Date Terminated:
   Date Reactivated:                                         Date Cancelled:
   DaysSuspended(Cur/Tot):                   0 (           ) Report Number:    OAS-L-03-10
   Rpt Title:      AUDIT OF THE RESEARCH AND DEVELOPMENT INVESTMENT CRITERIA FOR FOSSIL ENERGY

                                  1    .4."...   M ,.':',
                                                      ,I  ...
                                                           W..l+,*,                                               7


   Aud Type:     EAE    ECONOMY & EFFICIENCY
   Category:     FRD    FOSSIL ENERGY R&D                             AD:      376   LEWANDOWESKI
   DOE-Org:      HFE    HEADQUARTERS, FOSSIL                          AIC:     387   METZ
   Maj Iss:      031    ENERGY TECHNOLOGY                             HDQ-Mon: 421   SCHULMAN
   Site:         MSA MULTI-SITE AUDIT                                 ARM:     459   COLLARD



          Task No:
          Task Order Dt:                                   CO Tech. Rep:
          Orig.Auth Hrs:                                   Orig Auth Costs:
           Current Auth:                                   Current Auth Cost:
           Tot Actl IPR Hr:                                Tot Actl Cost:                                                         ..j




                   BARWATT, T                         .6          08-FEB-03
                   LEWANDOWSKI, R                  18.4-          08-FEB-03
                   POWELL, J                       81.2           08-FEB-03
                   METZ, E                         94.4           08-FEB-03
                       Total:                      194.6
02/24/03     16:15 FAX 301 903 4656             CAPITAL REGION            - FORS FIVEA            ]005/005




                                                                                         Attachment 4

                             AUDIT DATABASE INFORMATION SHEET


       1. Project No.: A02PT034

       2. Title of Audit: Audit of the Research and Development Investment Criteria for Fossil Energy

       3. Report No./Date: OAS-L-03-10/February 19, 2003

       4. Management Challenge Area: Performance Management

       5. Presidential Mgmt Initiative: Better R&D Investment Criteria

       6. Secretary Priority/Initiative: No specific initiative

       7. Program Code: FE

       8. Location/Sites: Headquarters and the National Energy Technology Laboratory

       9. Finding Summary: No findings. This was a letter report.

           10. Keywords:   research and development
                           R&D
                           investment criteria
                           budget request
                           PART
                           scorecard
